HHS/OIG-AUDIT--Medicare Hospital Patient Transfers Incorrectly Paid as Discharges,
Jan.1992 through Dec.1994 (A-06-95-00083)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicare Hospital Patient Transfers Incorrectly Paid as Discharges - January
1992 through December 1994," (A-06-95-00083)
November 1, 1996
Complete
Text of Report is available in PDF format (528 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report provides the results of our latest work in determining whether the
Health Care Financing Administration's (HCFA) control system detects incorrectly
reported transfers in Medicare's Part A prospective payment system (PPS). This
work follows up on a prior HCFA and Office of Inspector General (OIG) joint recovery
project. In that project the OIG identified incorrectly reported PPS transfers
through November 1991, which resulted in approximately $227 million of recoveries
and savings. Our new work has found that intermediaries continue to make payments
for incorrectly reported transfers. The OIG identified another 43,012 incorrectly
reported transfers and approximately $127.3 million of potential overpayments for
the 3-year period ended December 31, 1994.
Our work to date indicates that the PPS transfer edit does detect incorrectly
reported PPS transfers; however, fiscal intermediaries may not be processing these
transfers according to HCFA's instructions. We are continuing our audit work to
fully identify the cause(s) for incorrectly reported PPS discharges not being adjusted
to transfers.
We are recommending that HCFA: (1) advise all intermediaries that the PPS transfer
instructions must be followed when processing future transactions, (2) assist us
in identifying the cause(s) of this problem, and (3) cooperate with the Department
of Justice (DOJ) efforts to recoup past overpayments. The DOJ has informed us that
it will assume responsibility for the recovery of overpayments related to incorrectly
reported and paid PPS transfers occurring between January 1, 1992 and December
31, 1995, as part of its fraud investigation under the Civil False Claims Act.
(We are in the process of obtaining the data for 1995 and will transmit it to DOJ
when available.) Thus, HCFA should not recover incorrectly reported and paid PPS
transfers occurring prior to January 1, 1996 under its usual procedures.
The HCFA Administrator responded to our draft report in a memorandum dated September
3, 1996. The HCFA agreed with our recommendations and will issue instructions to
all intermediaries requiring them to utilize the edit to correctly process claims
involving PPS transfers. The HCFA also agreed that it should assist the OIG in
identifying the causes of this problem and that it should cooperate with the DOJ
in its recovery efforts. The HCFA also included technical comments which we considered
in finalizing this report.